Filed 2/11/20 Bikkina v. Mahadevan CA1/4
(unmodified opinion attached)

NOT TO BE PUBLISHED IN OFFICIAL REPORTS
California Rules of Court, rule 8.1115(a), prohibits courts and parties from citing or relying on opinions not certified for
publication or ordered published, except as specified by rule 8.1115(b). This opinion has not been certified for publication or
ordered published for purposes of rule 8.1115._________

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
FIRST APPELLATE DISTRICT
DIVISION FOUR
PREM BIKKINA,
Plaintiff and Respondent,

A156582

v.

(Alameda County
Super. Ct. No. RG14717654)

JAGAN MAHADEVAN,
Defendant and Appellant.
THE COURT:

It is ordered that the opinion filed herein on January 14, 2020, be
modified as follows:
1.

On page 12, the first two full sentences and their accompanying
citations:
“There is no reporter’s transcript of the trial to support these
assertions, and Mahadevan’s citations to the complaint and a
settlement conference brief are insufficient. (See Ehrler v. Ehrler
(1981) 126 Cal.App.3d 147, 154 [trial briefs in the record are no
substitute for reporter’s transcript showing actual testimony].)
This argument therefore fails. (Jameson v. Desta (2018) 5
Cal.5th 594, 608-609.)”
are replaced with:

la

“Mahadevan has demonstrated only a conflict in the evidence, not
that Bikkina knowingly or purposefully presented false evidence,
so he has not established fraud.”
There is no change in judgment.
The requests for publication and judicial notice are denied. The
petition for rehearing is also denied.

P. J.

Date:

Bikkina v. Mahadevan (A156582)

2a

Filed 1/14/20 Bikkina v. Mahadevan CA1/4 (unmodified opinion)

NOT TO BE PUBLISHED IN OFFICIAL REPORTS
California Rules of Court^rule 8.1115(aj^, prohibits courts and parties from citincyir relying^on opinions not certified forjiubHcation or
purposes of rule 8!l 115.^
13______^^^^________

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
FIRST APPELLATE DISTRICT
DIVISION FOUR

PREM BIKKINA,
Plaintiff and Respondent,

A156582

v.
(Alameda County
Super. Ct. No. RG14717654)

JAGAN MAHADEVAN,
Defendant and Appellant.

Jagan Mahadevan appeals the trial court’s denial of his motion for relief from a
judgment under Code of Civil Procedure section 473 and his motion to quash post­
judgment discovery.1 He argues the judgment is void and the trial court had no
jurisdiction to enforce post-judgment discovery against him. We affirm.
I.

BACKGROUND

Prem Bikkina sued Mahadevan for falsely stating that Bikkina had fabricated
various research results and plagiarized several academic works when Bikkina was a
doctoral student in engineering at the University of Tulsa in Oklahoma. He alleged
claims for defamation, intentional infliction of emotional distress, and negligence. A jury
returned a special verdict for Bikkina on all counts and awarded $776,000 in damages. In
response to Bikkina’s request for punitive damages, the jury found that Mahadevan had
engaged in malice, oppression, or fraud.

i

All further statutory references are to the Code of Civil Procedure unless
otherwise specified.
1
3a

Immediately after the jury delivered the verdict on liability and compensatory
damages, Bikkina offered to waive the punitive damages phase of trial if Mahadevan
would waive his right to appeal the verdict. Mahadevan was not in the courtroom so
Mahadevan’s counsel, Jeremy Tissot, left the courtroom and phoned Mahadevan to
present the offer. Following a 15-minute conversation, Tissot returned to the courtroom
and announced that there was an agreement on Bikkina’s proposed stipulation. The clerk
entered the stipulation in the minutes and the trial judge dismissed the jury.
Following the trial, Mahadevan returned to his home in Texas. On February 15,
2018, at 4:12 PM Central Standard Time, Mahadevan filed a bankruptcy petition in
Texas. The trial court entered judgment on the jury verdict on the same day. Mahadevan
avers, based on his description of a phone conversation with court staff, that the judgment
was filed at 4:19 PM Pacific Standard Time (i.e., 6:19 PM Central Standard Time).
Mahadevan notified the trial court and Bikkina of his bankruptcy filing the next day. Ten
days later, Mahadevan moved to dismiss the bankruptcy filing. The bankruptcy court
ordered the case dismissed on March 19, 2018.
The judgment instructed Bikkina to file a memorandum of costs and motion for
interest on the judgment from the date of Mahadevan’s offer under Code of Civil
Procedure section 998. Bikkina therefore moved to amend the judgment to add an award
of costs and to specify the date that interest began to accrue on the judgment. Mahadevan
did not oppose the motion and the trial court entered the amended judgment on August 1,
2018.
A short time later, Mahadevan moved to vacate the stipulation, judgment, and
amended judgment under Code of Civil Procedure sections 473 and 663. Mahadevan
claimed he had not agreed to waive his right to appeal the jury verdict and argued the
resulting judgment was therefore void. He attacked the amended judgment on various
substantive grounds, such as that the interest was miscalculated, Bikkina’s claims were
barred by the statute of limitations, and there were errors in the jury instructions.
Mahadevan also argued the judgment was void because it was entered in violation of the

2

4a

automatic stay created by Mahadevan’s bankruptcy filing. The trial court denied the
motion.
Around this time, Bikkina served Mahadevan with special interrogatories and
requests for production of documents under the procedures for requesting discovery from
a judgment debtor under sections 708.020 and 708.030. Mahadevan moved under
sections 410.10, 410.30, and 418.10 to quash these discovery requests based on due
process and inconvenience of forum. The trial court denied this motion as well.
II.

DISCUSSION

We begin by delineating the scope of Mahadevan’s arguments that we will
consider in this appeal. Mahadevan’s notice of appeal indicated he was appealing from
(1) the judgment, (2) the order denying his motion to vacate the judgment, (3) the order
denying his motion to quash discovery; and (4) an order directing the parties to meet and
confer concerning Bikkina’s discovery requests. Bikkina moved to dismiss the appeal
because Mahadevan waived his right to appeal the judgment and because the appeal from
the judgment was untimely under California Rules of Court, rule 8.104. (Cal. Rules of
Court, rule 8.104 [notice of appeal must be filed within 60 days after service of notice of
entry of judgment]. This court granted Bikkina’s motion as to Mahadevan’s appeal from
the final judgment but denied it as to the other post-judgment orders. This court ordered
the parties to limit their briefing to the post-judgment orders and not to address the merits
of the judgment. Mahadevan’s brief nonetheless discusses substantive defects he
perceives in the jury’s verdict and the resulting judgment. We will not address such
arguments.
A.

Motion under section 4732
1. Automatic bankruptcy stay
Mahadevan argues the judgment is void because it was entered in violation of the

automatic stay created by his bankruptcy filing. He contends the trial court therefore
2 Mahadevan’s motion in the trial court was also styled as one under sections 473,
663, 664, and 657. However, his briefing here addresses only the standards for motions
under section 473, so we do likewise.
3
5a

erred in denying his motion under section 473, subdivision (d), because that statute
allows a court to “set aside any void judgment or order.” (§ 473, subd. (d).) We review
de novo a ruling based on section 473, subdivision (d). (Talley v. Valuation Counselors
Group,''Inc. (2010) 191 Cal.App.4th 132, 146.) However, if a trial court resolved
conflicting evidence to decide whether a judgment was void, we review that ruling for
abuse of discretion. (.Ramos v. Homeward Residential, Inc. (2014) 223 Cal.App.4th
1434, 1441 & fn. 5.)
“The filing of a bankruptcy petition operates as an automatic stay of the
commencement or continuation of any action against a bankrupt debtor or against the
property of a bankruptcy estate. (11 U.S.C. § 362(a)(4); U.S. v. Dos Cabezas Corp. (9th
Cir. 1993) 995 F.2d 1486, 1491.) Actions taken iri violation of the stay are void, even
where there is no actual notice of the stay. {In re Schwartz (9th Cir. 1992) 954 F.2d 569,
571.)” {Pioneer Construction, Inc. v. Global Investment Corp. (2011) 202 Cal.App.4th
161, 167.)
Mahadevan asserts it is undisputed that the judgment was entered several hours
after he filed for bankruptcy, so that the judgment is necessarily void. He further
contends that because the judgment was void, the amended judgment is likewise void.
We disagree.
Federal courts have recognized an exception to the automatic bankruptcy stay for
ministerial acts. “This exception stems from the common-sense principle that a judicial
‘proceeding’ within the meaning of [Title 11 United States Code] section 362(a) ends
once a decision on the merits has been rendered. Ministerial acts or automatic
occurrences that entail no deliberation, discretion, or judicial involvement do not
constitute continuations of such a proceeding.” {McCarthy, Johnson & Miller v. North
Bay Plumbing, Inc. {In re Pettit) (9th Cir. 2000) 217 F.3d 1072, 1080 {In re Pettit).)
Rexnord Holdings, Inc. v. Bidermann (2d Cir. 1994) 21 F.3d 522 {Rexnord) applied this
exception in circumstances analogous to those here. In that case, the plaintiff moved for
entry of judgment based on a defendant’s breach of a settlement. {Id. at pp. 524-525.)
At a hearing on the motion, the district court stated orally that it would grant the motion
4
6a

and enter judgment for the plaintiff and endorsed the motion papers to that effect. (Id. at
pp. 525, 528.) After the hearing but before the district court’s order was docketed, the
defendant filed for bankruptcy. (Id. at p. 525.) The Second Circuit held that the
docketing of the judgment did not violate the stay. (Id. at p. 528.) “The judicial
proceedings were concluded at the moment the judge directed entry of judgment, a
decision on the merits having then been rendered.” (Ibid.)
The ministerial principle applies here. The jury’s verdict rendered the decision on
the merits of Bikkina’s claims and the parties’ subsequent stipulation to waive the
punitive damages phase of trial (discussed further below) resolved the only other pending
issues. At that point, no further deliberation or decision by the jury or the court on those
claims was necessary or permitted. Mahadevan is correct that the trial court modified
Bikkina’s proposed judgment to instruct him to file a memorandum of costs and motion
for prejudgment interest based on his section 998 offer. But precisely because this
instruction left the issues of costs and interest for future proceedings, this aspect of the
judgment did not embody any judicial decision beyond what the jury verdict already
provided.
Mahadevan contends the ministerial exception does not apply here because the
Ninth Circuit has not adopted it. This is incorrect, as the Ninth Circuit recognizes the
ministerial exception. (In re Pettit, supra, 217 F.3d at p. 1080 [“We now adopt the
ministerial act exception for this circuit”].)3 Mahedevan also argues the doctrine applies
only in federal court. The only authority Mahadevan cites for this argument, however, is
Musso v. Ostashko (2d Cir. 2006) 468 F.3d 99, which distinguished Rexnord as irrelevant
to the question of whether a state court judgment was final for the purposes of
determining what property was part of a bankruptcy estate. (Id. at p. 107, fn. 2.) As this
case concerns the scope of the federal bankruptcy stay—the same question at issue in

3 This contention is also irrelevant, as we are not bound by decisions of the Ninth
Circuit or any other lower federal court, even on matters of federal law. (Tully v. World
Savings & Loan Assn. (1997) 56 Cal.App.4th 654, 663.)
■

5

7a

Rexnord—we find that decision to be persuasive and Musso v. Ostashko to be
inapplicable.
Even if the original judgment were void for violating the automatic bankruptcy
stay, the trial court’s entry of the amended judgment cured any violation. If the original
judgment were void, as Mahadevan contends, then the amended judgment was the first
judgment entered in this case. Because the automatic bankruptcy stay expired in March
2018, the entry of the amended judgment did not violate the stay.
Mahadevan contends the amended judgment was still void because courts cannot
make substantive amendments to a judgment to correct judicial error. (See Rochin v. Pat
Johnson Manufacturing Co. (1998) 67 Cal.App.4th 1228.) But if the original judgment
were void and of no legal effect, then the amended judgment was not correcting a judicial
error so much as entering a judgment for the first time. Mahadevan also asserts that the
amended judgment contains substantive errors and that Bikkina’s motion for entry of the
amended judgment was unopposed only because his counsel, Tissot, failed to file an
opposition or even inform Mahadevan that the motion was pending. Mahadevan has
cited no authority holding that either of these assertions, even if true, would make the
amended judgment void.
2. Stipulation waiving right to appeal
Mahadevan separately argues the original judgment was void because it was based
on his attorney’s unauthorized stipulation waiving his right to appeal. “As a general
proposition the attorney-client relationship, insofar as it concerns the authority of the
attorney to bind his client by agreement or stipulation, is governed by the principles of
agency. [Citation.] Hence, ‘the client as principal is bound by the acts of the attorneyagent within the scope of his actual authority (express or implied) or his apparent or
ostensible authority; or by unauthorized acts ratified by the client.’ ” {Blanton v.
Womancare, Inc. (1985) 38 Cal.3d 396, 403 {Blanton).) While an attorney has authority,
either apparent or implied in law, to take certain actions in litigation simply by virtue of
his relationship with a client, that authority does not allow the attorney to “to ‘impair the
client’s substantial rights or the cause of action itself.’ [Citation.] For example, ‘the law
6
8a

is well settled that an attorney must be specifically authorized to settle and compromise a
claim, that merely on the basis of his employment he has no implied or ostensible
authority to bind his client to a compromise settlement of pending litigation,

5 55

(Id. at

pp. 403-404.) In addition, an attorney does not have authority to prevent a party from
appealing a judgment by waiving findings. (Id. at pp. 404^105.)
We agree with Mahadevan that under Blanton, his right to appeal the jury verdict
was a substantial right that Tissot could not settle, compromise, or waive without
Mahadevan’s authorization. To that extent, we conclude the trial court erred by ruling,
based on Blanton, that Tissot had apparent authority to waive Mahadevan’s right to
appeal merely because Tissot represented Mahadevan in the litigation.
However, that is not the end of the matter. The trial court also found that Tissot
had actual authority to agree to the stipulation waiving the right to appeal. It rejected as
“self-serving” Mahadevan’s declaration to the contrary submitted in support of his
motion to set aside the judgment. The trial court did not abuse its discretion in making
this finding. Tissot’s declaration in support of Mahadevan’s motion to set aside the
judgment stated that after receiving Bikkina’s offer to stipulate, Tissot spoke to
Mahadevan for 15 minutes and then returned to court and announced there was an
agreement. The trial court could reasonably read this as implying that Mahadevan had
agreed over the phone to the proposed stipulation. Emails between Tissot and
Mahadevan during the days after the entry of the stipulation confirm this reading. They
show that Mahadevan was aware of the appellate waiver and wanted to evade it because
he still disagreed with the jury’s verdict. However, nowhere in those emails did
Mahadevan complain that Tissot acted without authority or contrary to Mahadevan’s
wishes. Even if we were to review this evidence de novo, as Mahadevan urges, we
would reach the same conclusion as the trial court.
Because we conclude the trial court did not abuse its discretion by finding that
Tissot had actual authority to agree to the waiver, the authorities Mahadevan cites
regarding the invalidity of attorneys’ actions taken in excess of actual or implied
authority are inapposite. (See, e.g., Blanton, supra, 38 Cal.3d at p. 403 [noting that it was
7
9a

undisputed in that case that the attorney “acted not only without his client’s express
authority but contrary to her express instructions”]; Romadka v. Hoge (1991) 232
Cal.App.3d 1231, 1237 [allowing parties to vacate an attorney’s mistaken dismissal with
prejudice because parties did not authorize it].)4
Mahadevan attacks the trial court’s finding that Tissot had actual authority to
agree to the stipulation by arguing based on section 664.6 that if a party is not personally
in court, the party must personally sign any settlement of litigation for it to bind the party.
Section 664.6 states, “If parties to pending litigation stipulate, in a writing signed by the
parties outside the presence of the court or orally before the court, for settlement of the
case, or part thereof, the court, upon motion, may enter judgment pursuant to the terms of
the settlement.” A settlement is only enforceable under section 664.6 if a party
personally signs it or agrees to it in court. (Levy v. Superior Court (1995) 10 Cal.4th 578,
586.) But section 664.6 does not provide the exclusive mechanism to enforce a
settlement. (See id. at p. 586, fn. 5.) Because Tissot had actual authority to agree to the
stipulation, it is still valid and otherwise enforceable even though it could not be enforced
under section 664.6.
3. Trial court’s subject matter jurisdiction
As independent bases for setting aside the judgment as void, Mahadevan contends
the trial court never had subject matter jurisdiction over Bikkina’s suit in light of
workers’ compensation exclusivity provisions, federal research misconduct policy, and
copyright law preemption. None of these contentions has merit.
Mahadevan first asserts that Bikkina’s claims concerned workplace injuries, which
under Oklahoma or California law are committed to the exclusive jurisdiction of the
workers’ compensation system. Under Oklahoma law, workers’ compensation rights and

4 The same reasoning applies to Mahadevan’s arguments that the trial court
should have set aside the judgment under section 473, subdivision (b)’s provisions
relating to mandatory and discretionary relief based on “mistake, inadvertence, surprise,
or excusable neglect.” (§ 473, subd. (b).) We will therefore not address those arguments
further.
8
10a

remedies are “exclusive of all other rights and remedies of the employee.” (Okla. Stat.,
tit. 85A, § 5(A).) But this statute and cases interpreting it describe its protections as
conferring an immunity from suit, not as depriving trial courts of subject matter
jurisdiction over civil suits. (See, e.g., id. § 5(C); Davis v. CMS Continental Natural Gas,
Inc. (Okla. 2001) 23 P.3d 288, 296 [referring to “[t]he immunity afforded employers
under” the predecessor statute].)
Mahadevan relies in the alternative on California workers’ compensation law.
Although some of Mahadevan’s alleged actions took place in California, Mahadevan has
not shown that Bikkina and Mahadevan ever worked for the same employer in California,
so we fail to see how California law could apply. (See Lab. Code, § 3601, subd. (a)
[workers’ compensation is “exclusive remedy for injury or death of an employee against
any other employee of the employer acting within the scope of his or her employment,”
italics added].) Additionally, “[w]here a complaint indicates that an employment
relationship exists between a plaintiff and a defendant, it is the defendant’s burden to
plead and prove that the [workers’ compensation] act applies. The trial court has
jurisdiction ‘unless and until’ the defendant proves otherwise. (Doney v. Tambouratgis
(1979) 23 Cal.3d 91, 98; see Lucich v. City of Oakland(1993) 19 Cal.App.4th 494, 498499.)” (Ventura v. ABM Industries Inc. (2012) 212 Cal.App.4th 258, 265-266.)
Mahadevan tried the case to a verdict without proving that Bikkina’s claims were barred
by workers’ compensation exclusivity provisions, so he cannot now seek to set aside the
judgment on this basis.5
Mahadevan next argues that Bikkina’s claims were beyond the trial court’s
jurisdiction because the veracity of his statements that Bikkina had fabricated various

5 Mahadevan argues for the first time in his reply brief that Oklahoma courts, not
California courts, were the proper venue for Bikkina’s negligence and intentional
infliction of emotional distress claims because Mahadevan’s conduct took place in
Oklahoma. Arguments raised for the first time in a reply brief are waived. {Shade
Foods, Inc. v. Innovative Products Sales & Marketing, Inc. (2000) 78 Cal.App.4th 847,
894-895, fii. 10.)
9
11a

research results and plagiarized several academic works turns on issues of federal law.
Mahadevan’s federal law argument relies mostly on authorities concerning federal
policies and procedures for investigations of plagiarism and fabrication of results in
federally-funded research.6 None of those authorities, however, establishes that the
procedures relating to federally-funded research deprive state courts of subject matter
jurisdiction over related common law claims between employees. At most, Mahadevan’s
authorities indicate that when an institution is investigating someone for fabrication, the
target must exhaust administrative review of that investigation before challenging its
propriety. (See Anversa v. Partners Healthcare System, Inc. (D.Mass. 2015) 116
F.Supp.3d 22, 31-32.) This principle has no application here, where Bikkina is not
challenging any institution’s investigation and there is no indication the investigations are
under administrative review.
In asserting the trial court’s lack of subject matter jurisdiction because Bikkina’s
claims involved copyrighted materials, Mahadevan relies on the principle that federal
courts have exclusive jurisdiction over claims that arise under federal copyright law. (28
U.S.C. § 1338(a); Durgom v. Janowiak (1999) 74 Cal.App.4th 178, 182.) The test for
whether a claim falls within federal courts’ exclusive copyright jurisdiction is the wellpleaded complaint rule, which examines whether the copyright issue arises from the face
of the complaint and does not examine potential defenses to an action. (Id. at pp. 182183.) Additionally, under the doctrine of complete preemption, any claim preempted by
federal copyright law should be treated as arising under copyright law for the purposes of
exclusive federal court jurisdiction. (Id. at p. 186; Ritchie v. Williams (6th Cir. 2005) 395

6 In support of this argument, Mahadevan has requested judicial notice of an
administrative decision by an appeals board at the federal Department of Health and
Human Services’ Office of Research Integrity, various federal regulations and policies,
and printouts of websites of the University of Tulsa and Lawrence Berkeley National
Laboratory. We deny these requests as irrelevant to the issues to be resolved in this
appeal. (See Schifando v. City ofLos Angeles (2003) 31 Cal.4th 1074, 1089, fn. 4
[denying request for notice of materials that were not “particularly supportive of
respondent’s cause or relevant to the action”].)
10
12a

F.3d 283, 286-287.) A state law claim is preempted if it concerns a copyrightable work
and asserts rights equivalent to those provided by copyright law. (Kabehie v. Zoland
(2002) 102 Cal.App.4th 513, 520.) By contrast, a state law right is not equivalent to
rights under copyright law if, to assert it in court, a plaintiff must prove some “extra
element” beyond mere reproduction, performance, distribution, or display of a
copyrighted work. (Id. at pp. 520-521.)
Mahadevan asserts that copyright law is relevant here because two of the
defamatory statements that the jury found he made related to Bikkina’s plagiarism of two
academic papers. However, Mahadevan does not address how copyright issues
necessarily arise on the face of those claims or how they assert rights equivalent to those
provided by copyright law. Indeed, Bikkina’s claims are premised on the absence of
copying from other research, which makes them the antithesis of copyright claims.
Bikkina’s defamation claims also included extra elements such as publication of
statements about the alleged copying, failure to exercise due care, and harm to reputation
that took them outside the realm of copyright law. (See Smith v. Maldonado (1999) 72
Cal.App.4th 637, 645 [reciting elements of defamation].) Mahadevan may have tried to
defend this action by proving the truth of Bikkina’s alleged plagiarism, thereby perhaps
indirectly proving copyright infringement. But he cites no authority establishing that
such a defense would support federal jurisdiction under the well-pleaded complaint rule
or principles of complete preemption. (See Durgom v. Janowiak, supra, 74 Cal.App.4th
atp. 183.)
4. Extrinsic fraud
Mahadevan also argues the judgment is void based on extrinsic fraud, in light of
discovery misconduct and various misrepresentations made by Bikkina or his witnesses
during trial. We reject this contention as well.
A judgment is void if procured by extrinsic fraud. “Extrinsic fraud only arises
when one party has in some way fraudulently been prevented from presenting his or her
claim or defense.” (Department ofIndustrial Relations v. Davis Moreno Construction,
Inc. (2011) 193 Cal.App.4th 560, 570.) Mahadevan claims there was extrinsic fraud
11
13a

because Bikkina presented false testimony that the University of Tulsa investigated
Mahadevan’s claims that Bikkina fabricated results and plagiarized two papers. There is
no reporter’s transcript of the trial to support these assertions, and Mahadevan’s citations
to the complaint and a settlement conference brief are insufficient. (See Ehrler v. Ehrler
(1981) 126 Cal.App.3d 147, 154 [trial briefs in the record are no substitute for reporter’s
transcript showing actual testimony].) This argument therefore fails. {Jameson v. Desta
(2018) 5 Cal.5th 594, 608-609.) Moreover, even if Bikkina’s witnesses’ testimony were
false as Mahadevan asserts, such falsity did not prevent Mahadevan from offering
contrary testimony or otherwise presenting his case.
Mahadevan also contends he was hampered by Bikkina’s failure to timely produce
documents and the University of Tulsa’s failure to respond to a subpoena or allow a
witness to appear for a deposition. The solution to these problems would have been
motions to compel discovery and to enforce the subpoena. These issues do not
demonstrate there was any extrinsic fraud in the trial.
There is thus no merit to any of Mahadevan’s arguments that the court erred in
denying his motion to set aside the judgment as void.
B. Motion to quash
The trial court denied Mahadevan’s motion to quash Bikkina’s post-judgment
discovery requests under sections 418.10, 410.30, and 410.10 because Mahadevan did not
dispute that the court had jurisdiction over him during the trial and the court found that
jurisdiction extended to Bikkina’s efforts to enforce the judgment.7
Mahadevan argues the trial court should have granted his motion to quash because
the trial court did not have jurisdiction to enforce its judgment against him. He moved to

7 Section 418.10 allows a defendant to move to (1) quash service of summons for
lack of personal jurisdiction, (2) stay or dismiss an action based on the inconvenience of
the forum, and (3) dismiss an action for delay of prosecution. (§418.10, subd. (a).)
Section 410.30 allows a defendant to move to dismiss or stay an action that should be
heard in a forum outside the state. Section 410.10 allows California courts to “exercise
jurisdiction on any basis not inconsistent with the Constitution of this state or of the
United States.”
12
14a

Texas during the litigation and asserts that due process principles under the 14th
Amendment to the United States Constitution require that efforts to enforce the judgment
must take place in Texas courts.
When a challenge to jurisdiction arises from undisputed facts, as here, we review
the trial court’s ruling de novo, with the party asserting jurisdiction bearing the burden of
establishing jurisdiction. (As You Sow v. Crawford Laboratories, Inc. (1996) 50
Cal.App.4th 1859, 1866.)
While Mahadevan argues the trial court’s assertion ofjurisdiction violated due
process, the substance of his argument and the authorities he cites concern only the full
faith and credit clause in article IV, section 1 of the United States Constitution.
Accordingly, we restrict our analysis to the full faith and credit clause. Under that
constitutional provision, a “final judgment in one State, if rendered by a court with
adjudicatory authority over the subject matter and persons governed by the judgment,
qualifies for recognition throughout the land.” (Baker v. General Motors Corp. (1998)
522 U.S. 222, 233.) “Full faith and credit, however, does not mean that States must adopt
the practices of other States regarding the time, manner, and mechanisms for enforcing
judgments. Enforcement measures do not travel with the sister state judgment as
preclusive effects do; such measures remain subject to the evenhanded control of forum
law.” (Id. atp. 235.)
Mahadevan contends this principle means Bikkina must domesticate his judgment
in Texas and conduct discovery according to Texas law if he wants to enforce it. If
Bikkina wanted to file an action in Texas to execute the judgment against Mahadevan’s
assets located in Texas, Mahadevan would likely be correct that Bikkina would have to
follow Texas procedures. But that is not this case. Bikkina is trying to use California’s
judgment enforcement measures to enforce a California judgment, so the discovery
requests do not implicate the full faith and credit clause.
In addition to attacking the denial of his motion to quash, Mahadevan also
contends the trial court erred in entering two orders directing the parties to meet and
confer regarding Bikkina’s discovery requests and continuing the hearing on those
13
15a

requests. He contends the orders are invalid because they were entered before finality of
rulings on his petition for writ of mandate challenging the denial of his motion to quash
and petition for review in the California Supreme Court. (See § 418.10; Cal. Rules of
Ct., rule 8.491.)
We will not consider this argument because the challenged orders are not
appealable. Although post-judgment orders are generally appealable under section 904.1,
subdivision (a)(2), such orders must themselves still be sufficiently final. {In re
Marriage of Olson (2015) 238 Cal.App.4th 1458, 1462.) Orders that are preparatory to
later proceedings are not sufficiently final. {Ibid.) The trial court’s orders merely direct
the parties to meet and confer and do not finally resolve any issues about Bikkina’s
discovery requests. The orders explicitly contemplated future action in that they
continued the hearing on Bikkina’s motions to compel until a later date.
III.

DISPOSITION

The trial court’s orders are affirmed.

14
16a

BROWN, J.

WE CONCUR:

POLLAK, P. J.

TUCHER, J.

Bikkina v. Mahadevan (A156582)

15
17a

Law Offices of Edward C. Casey J'r.
Attn: Casey Jr., Edward C.
600 Grand Avenue
.Suite 305
Oakland, CA 94610___

Jagan Mahadevan
3419 Autumn Bend Drive
■ Sugar Land, TX 77479

Superior Court of California, County of Alameda
Hayward Hall of Justice
No. RG14717654

Bekinna
PlaintiffZPetitioner(s)

■ Order

VS.

Motion to Vacate/Set Aside Judgment
Mahadevan
Defendaht/Respondent(s)’
(Abbreviated Title)

The Motion to Vacate/Set Aside Judgment filed for Jagan Mahadevan was set for hearing on
12/04/2018 at 03:00 PM in Department 517 before the Honorable Stephen Pulido. The Tentative
Ruling was published and was contested.
The matter was argued and submitted, and good cause appearing therefore,

IT IS HEREBY ORDERED THAT:
The tentative ruling is affirmed as follows: The Motion of Defendant and Judgment Debtor Jagan
Mahadevan ("Defendant1') to Vacate the Order of February 9, 2018, entered pursuant to the Stipulation
of Defendant and Plaintiff and Judgment Creditor Prem Bikkma ("Plaintiff"), pursuant to CCP §§ 663
and 473(b), is DENIED.
On February 9, 2018, at the conclusion of trial,, the jury filed its special verdict form and awarded
Plaintiff Prem BiMana the sum of $776,000.00. On the same day, counsel for Plaintiff and Defendant
........... J^<wa^aptip^Jere^
agreed upon by tneir clients regarding the upcoming trial of .Plaintiffs punitive damages claim against
Defendant Mahadevan. Counsel advised the Court that Plaintiff had agreed to waive his right to
prosecute his punitive damages claim in exchange for Defendant's waiver of his right to appeal the
Judgment entered upon the special' verdict. Defendant contends in his motion that he never gave his
authorization to Mr. Tissot to make the stipulation, and that it should therefore be vacated at this time.
The Court notes that although Defendant reiterates the same arguments regarding the alleged prejudicial
errors that occurred during the trial in his fifteen (15) page memorandum of points and authorities, the
instant motion is limited to Mr. Tissot's unauthorized representation to the Court that Defendant had
agreed to the terms of the Stipulation. The Court's understanding of the scope of the motion is based on
the "Summary and Relief Requested" Section of the memorandum on pages 17 and 18. Even if.
Defendant had intended to seek relief based on the claimed prejudicial errors described in his
memorandum and supporting declarations, the Court cannot reach those issues because they constitute
untimely and improper requests for reconsideration of the findings and conclusions m the Court's May
17, 2018 order denying Defendant's Motion for New Trial. See CCP § 1008(a) (party has 10 days to
request reconsideration); Lennar Homes of Calif., Inc. v. Stephens (2014) 232 Cal.App.4th 673, 681682 (motion is a motion for reconsideration if it asks the court to resolve the same issues previously
decided); and Powell v. County of Orange (2011) 197 Cal.App.4th 1573, 1577 (same).

Exhibit "A"

The Court denies Defendant's Motion to Vacate the Stipulated Order because Defendant has not met his '
burden of presenting some evidence beyond his self-servu^declaration testimony made nearly six (6)

months after the Stipulation was. announced in open court that counsel did not have his authorization to
waive his appeal rights. The Court notes that Defendant obtained a substantial benefit from the
•Stipulation, as any punitive damages award would not be dischargeable in bankruptcy. It has long been
the rule that parties are bound by the decisions, actions and omissions of the attorneys they retain to
represent them in litigation. See Blanton v. Womancare, Inc. (1985) 38 Cal.Sd 396, 403. The Court
concludes that Mr. Tissot had both the actual and apparent authority to represent to the Court that his
client agreed with the terms of the Stipulation on February 9,2018.
Finally, Defendant's contention that the Court lacked jurisdiction to enter the Judgment against him on
February 15, 2018, because the case was stayed by his bankruptcy filing is without merit. See CCP §
473(d). Counsel for Defendant did not give notice of his client’s bankruptcy filing until February 16,
2018. In addition, the Court's entry of Judgment on February 15, 2018 did not result in any prejudice to
Defendant because Defendant's bankruptcy action was dismissed on March 19,2018.
The Courfdeclines to consider the new evidence submitted by Defendant with his reply papers on
November 26,2018. Defendant has submitted another declaration in support of the motion. Defendant
has also submitted a Declaration of Alan R. Price, Ph. D. Based on its cursory review, the additional
declaration testimony pertains to the merits of Plaintiffs claims and Defendant's affirmative defenses.
The Corirt’refersithe.pajfies-.to the.discussionaiiuthe.se.condipaiagraphTegaj(fi^.;P.eftpdanils_conteetion j ,
.that he is entitled to a new trial due to procedural and evidentiary errors during the trial.
The Court will prepare the order and mail copies to the parties. Counsel for Plaintiff Bikkina shall file
and serve the Notice of Entry of Order within five (5) days of the date shown on the Clerk's Certificate
of Mailing.
NOTICE: Effective June 4, 2012, the. Court will not provide a court reporter for civil law and motion
hearings, any other hearing or trial in civil departments, or any afternoon hearing in Department 2.01.
\ facsimile

Dated: 01/08/2019

\

Judge Stephen Pulido

19a

Filed 10/9/15

CERTIFIED FOR PUBLICATION
IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
FIRST APPELLATE DISTRICT
DIVISION FOUR

PREM BIKKINA,
Plaintiff and Respondent,

A143031

v.
(Alameda County
Super. Ct. No. RG14-717654)

JAGAN MAHADEVAN,
Defendant and Appellant.
I.

INTRODUCTION
Appellant Jagan Mahadevan (Mahadevan) appeals from the denial of his special
motion to strike pursuant to California’s anti-SLAPP statute (Code Civ. Proc., § 425.16)1
filed in response to respondent Prem Bikkina’s (Bikkina) complaint alleging that
Mahadevan made false and libelous statements about Bikkina’s research. The trial court
denied the motion, finding Mahadevan’s statements did not arise from protected activity.
We agree with the trial court and further conclude that, even if the conduct arose from
protected activity, the claims have sufficient merit to survive a motion to strike.
Therefore, we affirm.

l

SLAPP is an acronym for “strategic lawsuit against public participation.” All
further statutory references are to the Code of Civil Procedure unless otherwise noted.
1
20a

II.
FACTUAL AND PROCEDURAL BACKGROUND
A. Bikkina’s Complaint
We begin with the facts alleged in the complaint. In 2007, Bikkina entered a
Ph.D. program at the McDougall School of Petroleum Engineering at the University of
Tulsa (University). Mahadevan was his dissertation advisor and supervisor from 2007 to
2010. Bikkina complained that Mahadevan was repeatedly reassigning him to different
projects and requested a new advisor, which he was given in May 2010. In March 2011,
Bikkina published a scientific paper on carbon sequestration (Paper 1) that Mahadevan
believed contained inaccuracies. The dispute over the paper led both Bikkina and
Mahadevan to file formal complaints alleging violations of the University’s harassment
policy. The University found that Bikkina had not violated the policy, but instead that
Mahadevan had committed “serious violations.”
In 2011, Bikkina published a second scientific article in a professional journal
(Paper 2) and Mahadevan claimed he was a co-author. Bikkina submitted a second
formal complaint to the University. The University concluded Mahadevan had no co­
authorship rights.
In March 2012, Mahadevan filed a complaint against-Bikkina under the
University’s ethical conduct policy claiming Bikkina had falsified data in Paper 2 and
plagiarized Mahadevan’s work. In April 2013, Mahadevan filed another complaint with
the vice provost for research stating that Bikkina had engaged in plagiarism and falsified
data in his dissertation.
In May 2013, the senior vice provost for the University found that Mahadevan had
violated the University’s harassment policies through bad faith efforts to interfere with
and undermine Bikkina’s research, publications, and reputation. The provost found that
Bikkina had engaged in no harassment, unethical conduct, plagiarism or academic
misconduct.
In June 2013, Bikkina completed his Ph.D. and began working at Lawrence
Berkeley National Laboratory (LBNL). Shortly thereafter, Mahadevan contacted one of
2

21a

Bikkina’s superiors to inform him that Bikkina had falsified the data in Papers 1 and 2.
On August 30, 2013, Mahadevan made a presentation at LBNL and told Bikkina’s
colleagues that Bikkina had published a paper using false data. Mahadevan also
contacted LBNL’s research and institutional integrity officer to claim Bikkina had
falsified data.
In March 2014, Bikkina filed a complaint for damages against Mahadevan
alleging four causes of action: (1) libel per se for Mahadevan’s published written
statements to the University and LBNL that Bikkina had falsified data and plagiarized
Mahadevan’s work; (2) negligence for Mahadevan’s course of conduct; (3) intentional
infliction of emotional distress and; (4) slander per se for Mahadevan’s oral statements to
University and LBNL employees.
B. Mahadevan’s Anti-SLAPP Motion to Strike
Mahadevan filed a special motion to strike Bikkina’s complaint pursuant to
section 425.16. Mahadevan argued that Bikkina improperly sought to chill public
discourse on carbon sequestration and its impacts on global warming. Mahadevan
asserted that his statements concerned important public issues and constituted protected
speech. He further argued that Bikkina could not prevail on the merits because all his
statements were true and fell under the common interest privilege in Civil Code
section 47, subdivision (c).
Mahadevan submitted a declaration supporting his motion which set forth his
version of the underlying facts. The declaration stated that Bikkina worked under his
supervision on research relating to carbon dioxide sequestration. Bikkina’s research used
contaminated data and did not follow proper procedures. After leaving Mahadevan’s
research group, Bikkina published Paper 1 which was based upon the contaminated data,
specifically relying on a quartz sample contaminated by fluorine deposits.
Mahadevan asserts that Paper 2 contained content that he had originally authored.
He claims Paper 2 originally listed him as a co-author but his name had been deleted. He
contacted the listed co-author to inform him that Paper 2 was the product of his
intellectual efforts.
3
22a

In 2013, Mahadevan spoke to an “audience of scientists” at LBNL about the
contamination of Bikkina’s data because they had an interest in the issue and had either
used Bikkina’s false data or cited to it.
Mahadevan also supported his motion with the declaration of Dr. Winton Cornell,
a professor at the University. Cornell stated that he once saw Bikkina using a sample of
quartz crystal that appeared to be contaminated, but he had no knowledge as to whether
this contaminated sample formed the basis of Bikkina’s research papers. He stated he is
aware of one scholarly article that raised concerns about Bikkina’s research and
techniques.
Bikkina filed an opposition to the motion to strike, arguing Mahadevan’s
statements were not made in a public forum and did not concern matters of public
interest. He contended that the motion also failed because his claims had “minimal
merit.” He argued Mahadevan’s comments were not conditionally privileged, and further
that there was evidence the statements were made with malice.
In support of his opposition, Bikkina submitted the declaration of Winona Tanaka,
the senior vice provost for the University (the provost). The provost handled the various
complaints and investigations related to Mahadevan’s allegations. She confirmed
Mahadevan complained about Paper 1, disowned any interest in the paper’s contents, and
demanded that Bikkina correct inaccuracies. Bikkina submitted a formal complaint
against Mahadevan alleging that Mahadevan had presented false and wrongful claims
about Bikkina’s research. He further alleged that Mahadevan had told him, “Prem, I am
going to screw you.”
In 2011, the provost appointed a three-member investigatory committee to
investigate the complaints filed by both men. The provost issued a final decision and
concluded that Mahadevan had repeatedly violated the University’s harassment policy
and that these violations were abusive and egregious. The decision listed a series of
sanctions against Mahadevan. After reviewing the decision, Mahadevan stated that he
would resign from the University, where he had been recently denied tenure, in exchange
for an agreement that the provost not finalize the decision regarding his conduct.
4

23a

After leaving the University, Mahadevan contacted the co-authors of Paper 2
claiming he had co-authorship rights to the paper. The provost reviewed emails from
Mahadevan to Bikkina’s co-author, Dr. Ramgopal Uppaluri, claiming co-authorship
rights. The investigatory committee, however, found that Mahadevan had disassociated
himself from Bikkina’s research, given his permission for Bikkina to use the data, and
that Bikkina had been given University approval to publish the research.
Bikkina filed a second formal complaint in response to Mahadevan’s allegations
about co-authorship rights to Paper 2. The provost sent a letter to Bikkina’s co-author,
Dr. Uppaluri, stating that Mahadevan had no ownership or authorship rights to any of the
data or content of Paper 2. Mahadevan then filed two additional formal complaints in
2012 and 2013 claiming Bikkina had falsified data in Paper 1, plagiarized Mahadevan’s
work in Paper 2, and committed plagiarism and data falsification in his dissertation. The
provost conducted a further investigation and issued a formal memorandum of decision
concluding that all of Mahadevan’s complaints against Bikkina were “wholly unfounded
and spurious.” She found that Mahadevan had disclaimed ownership and disassociated
himself from Bikkina’s research and relinquished any right to control the research or
data. She further found that Mahadevan “has repeatedly violated the Harassment Policy
by knowingly and in bad faith making false accusations against Mr. Bikkina regarding
Paper #1 and Paper #2 and engaging in conduct that is defamatory, retaliatory,
demeaning, intimidating, threatening and otherwise harmful [conduct] to Mr. Bikkina’s
educational and professional reputation on and off campus.” She further concluded that
Mahadevan had violated the University’s ethical conduct policy by “making false
allegations that were grounded in bad faith and with malicious intent to damage
Mr. Bikkina’s reputation, research and scholarship on and off campus.” She concluded
that Bikkina had not committed plagiarism.
Timothy Kneafsey, a department head at LBNL and Bikkina’s supervisor,
submitted a declaration stating that Mahadevan appeared at his office without an
appointment and told him that Bikkina published a paper using falsified data. The
research and institutional integrity officer for LBNL, Meredith Montgomery, was also
5

24a

contacted by Mahadevan who stated that Bikkina had falsified data in a research article.
Montgomery reviewed the University’s investigation and report and found it dispositive
of the issue. Montgomery sent Mahadevan a letter that his claims were unsubstantiated
and in bad faith.
Tetsu Tokunaga, a scientist at LBNL, declared that he attended the August 2013
lecture Mahadevan gave at LBNL. At the end of the lecture, Mahadevan showed slides
of Bikkina’s data and stated there were problems with the research. The slides did not
appear to be related to Mahadevan’s lecture. The LBNL lecture was made to
approximately 25 employees.
C. Trial Court’s Ruling on the Motion to Strike
At a hearing, the parties addressed the court’s tentative ruling denying the motion.
Mahadevan argued that his statements related to a matter of public interest under section
426.15, subdivision (e)(4).2 He relied on Tausv. Loftus (2007) 40 Cal.4th 683 (Taus) to
support his contention that his comments and speech about global warming were of
widespread public interest.
In a written order, the court denied the motion to strike finding “[w]hile the
content of any scholarly works may arguably concern a matter of public interest, the facts
here do not invoke the SLAPP statute.” Citing Weinberg v. Feisel (2003) 110
Cal.App.4th 1122 (Weinberg), the court concluded that a matter of public interest must
concern a substantial number of people and is not something of concern only to the
speaker or a small group of people. The court found that the statements were not made in
a public forum, but were made to individuals and attendees at a scientific conference.
2 Under section 425.16, the initial inquiry is whether the moving defendant has
made a threshold showing that the challenged causes of action arise from protected
activity which includes: (1) written or oral statements made before a legislative,
executive, or judicial proceeding; (2) written or oral statements made in connection with
an issue under consideration or review by a legislative, executive, or judicial body;
(3) written or oral statements made in a place open to the public or in a public forum in
connection with an issue of public interest; or (4) any other conduct in furtherance of the
exercise of the constitutional right of petition or free speech in connection with a public
issue or an issue of public interest. (§ 425.16, subd. (e).)
6
25a

The court also concluded that because Mahadevan did not meet his burden of
demonstrating the complaint arose from his protected activity, it need not decide whether
Bikkina could demonstrate a probability of success on the merits.
III.
DISCUSSION
A. Standard ofReview for Granting a Special Motion to Strike
“A cause of action against a person arising from any act of that person in
furtherance of the person’s right of petition or free speech under the United States
Constitution or the California Constitution in connection with a public issue shall be
subject to a special motion to strike, unless the court determines that the plaintiff has
established that there is a probability that the plaintiff will prevail on the claim.”
(§425.16, subd. (b)(1).)
Our Supreme Court has outlined the two steps involved in applying the antiSLAPP statute: “ ‘First, the court decides whether the defendant has made a threshold
showing that the challenged cause of action is one “arising from” protected activity.
(§ 425.16, subd. (b)(1).) If the court finds such a showing has been made, it then must
consider whether the plaintiff has demonstrated a probability of prevailing on the claim.’
[Citation.]” (Oasis West Realty, LLC v. Goldman (2011) 51 Cal.4th 811, 819-820 (Oasis
West).) Only a cause of action that arises from protected speech and lacks even minimal
merit is subject to being stricken under the anti-SLAPP statute. (Id. at p. 820.)
We review de novo an order granting or denying a motion to strike under section
425.16. (Oasis West, supra, 51 Cal.4th at p. 820.) “In considering the pleadings and
supporting and opposing declarations, we do not make credibility determinations or
compare the weight of the evidence. Instead, we accept the opposing party’s evidence as
true and evaluate the moving party’s evidence only to determine if it has defeated the
opposing party’s evidence as a matter of law.” (Albanese v. Menounos (2013) 218
Cal.App.4th 923, 928-929.)

7
26a

B. The First Prong—Protected Activity or Speech
Mahadevan argues on appeal that his statements about Bikkina’s research related
to matters of public interest and constitute protected speech. Mahadevan contends that
the trial court only considered section 425.16, subdivision (e)(3) as to whether the
statements were made in a place open to the public or a public forum and did not properly
consider section 425.16, subdivision (e)(4). We conclude Mahadevan’s statements were
not protected activity under either subdivisions (e)(3) or (e)(4).
A claim is subject to the anti-SLAPP statute under section 425.16, subdivision
(e)(3) if it is an “act in furtherance of a person’s right of petition or free speech under the
United States or California Constitution in connection with a public issue” as including:
“(3) any written or oral statement or writing made in a place open to the public or a
public forum in connection with an issue ofpublic interest.” (Italics added.) To come
within section 425.16, a statement must not only be made in a “ ‘place open to the public
or a public forum,’ ” it must also be made “ ‘in connection with an issue of public
interest.

9 99

(Nygard, Inc. v. Uusi-Kerttula (2008) 159 Cal.App.4th 1027, 1039 (Nygard).)

Mahadevan contends that his statements were made in public settings or in
communications to a large number of people. This is not an accurate characterization.
Mahadevan’s statements were made to faculty at the University and researchers at LBNL;
they were not made in a place open to the public or a public forum. (§ 425.16, subd.
(e)(3).) His statements were not reported in the media (see Nygard, supra, 159
Cal.App.4th at p. 1038 [newspaper is a public forum]) or posted on a Web site {Summit
Bankv. Rogers (2012) 206 Cal.App.4th 669, 693 {Summit Bank) [Internet message
boards are places “ ‘open to the public or a public forum’ ” for purposes of § 425.16,
subd. (e)].) “In our view, whether a statement is ‘made in a place open to the public or in
a public forum’ depends on whether the means of communicating the statement permits
open debate.” {Wilbanks v. Wolk{2004) 121 Cal.App.4th 883, 896-897 {Wilbanks).)
Initially, Mahadevan’s statements were made during the University complaint
process to University faculty and were not part of an open debate. He then made the

8
27a

same complaints to a specialized group of scientists at LBNL.3 The fact that Mahadevan
made statements about the alleged faulty data in Bikkina’s research at a lecture to a small
number of LBNL scientists does not constitute a public forum under subdivision (e)(3).
Therefore, the court did not err in concluding that Mahadevan failed to make a prima
facie finding that his challenged conduct was protected activity under subdivision (e)(3).
As to his alternative argument that this speech was protected under subdivision
(e)(4), we agree with the trial court’s conclusion that the statements were not made
concerning matters of public interest. “Section 425.16 does not define ‘public interest,’
but its preamble states that its provisions ‘shall be construed broadly’ to safeguard ‘the
valid exercise of the constitutional rights of freedom of speech and petition for the redress
of grievances.’ [Citation.]” {Summit Bank, supra, 206 Cal.App.4th at p. 693.)

The

definition of “public interest” within the meaning of the anti-SLAPP statute has been
broadly construed to include not only governmental matters, but also private conduct that
impacts a broad segment of society and/or that affects a community in a manner similar
to that of a governmental entity. [Citations.]’ [Citations.]” {Du Charmev. International
Brotherhood ofElectrical Workers (2003) 110 Cal.App.4th 107, 115 {Du Charme).)
Mahadevan contends that his criticism of Bikkina’s data was on a topic of public
interest because it relates to “one of the most important issues of our time—climate
change and greenhouse gases.” Thus, he argues the trial court incorrectly relied on
Weinberg, supra, 110 Cal.App.4th 1122 when it concluded that his criticism of Bikkina
was not a matter of public interest. He asserts that even though his statements at LBNL

3 Mahadevan’s letter to the editor of the International Journal of Greenhouse Gas
Control entitled “Comments on the Paper Titled ‘Contact angle measurements of
C02-water-quartz/calcite systems in the perspective of carbon sequestration A case of
contam ination ?”
<http://www.sciencedirect.com/science/article/pii/S1750583611001721> (as of Oct. 9,
2015) could be considered part of a scholarly debate on the topic and may constitute
protected speech, but this letter was not the subject of Bikkina’s complaint or the motion
to strike.
9
28a

were made to a small group of attendees, they were addressed to “the entire scientific
community,” establishing the public nature of the dispute.
In Weinberg, defendant, a token collector, made statements to the token collector
community that plaintiff was dishonest and had stolen a token from him. (Weinberg,
supra, 110 Cal.App.4th at p. 1126.) He published an advertisement in the token collector
newsletter, sent letters to other collectors, and discussed his allegations at the token
collector society. (Id: at p. 1128.) Plaintiff sued for libel and slander. Defendant brought
an anti-SLAPP motion claiming that his statements served the public interest by
discussing criminal activity. (Ibid.) The court concluded that defendant’s “private
campaign” to discredit plaintiff to a relatively small group of fellow collectors was a
private matter. (Id. at p. 1127.) The fact that the statements accused plaintiff of criminal
conduct did not make them a matter of public interest. (Ibid.)
The Weinberg court surveyed the case law to discern what constitutes a matter of
public interest and found public interest does not equate “with mere curiosity,” and
should be of “concern to a substantial number of people. [Citation.]” (Weinberg, supra,
110 Cal.App.4th at p. 1132.) “[A] matter of concern to the speaker and a relatively small,
specific audience is not a matter of public interest. [Citations.]” (Ibid.) Conversely, a
person cannot turn an otherwise private matter into a matter of public interest simply by
communicating it to a large number of people. (Id. at p. 1133.)
Like the conduct in Weinberg, Mahadevan’s statements were made to a small,
specific audience: University faculty and LBNL scientists. His broad assertions about the
public interest in climate change are not closely connected to his actual statements.
Mahadevan statements were specific complaints about contaminated quartz samples and
plagiarism in two papers that were not distributed to a broad audience.4 Simply because
carbon sequestration is related to climate change, it does not convert his technical
objections into a topic of public interest. Mahadevan’s speech was a private campaign to

4 Paper 1 was published in the International Journal of Greenhouse Gas Control
and Paper 2 was published in the Journal of Chemical and Engineering Data.
10
29a

discredit another scientist at the University, and later at LBNL, and not part of a public
debate on a broader issue of public interest.
Mahadevan fails in his effort to distinguish the decision by Division Two of this
appellate district in Rivero v. American Federation ofState, County, and Municipal
Employees, AFL-CIO (2003) 105 Cal.App.4th 913 {Rivero). Rivero was a janitorial
supervisor on the University of California, Berkeley campus. {Id. at p. 916.) The union
published and distributed documents claiming Rivero engaged in misconduct. {Id. at
pp. 916-917.) The union argued that they raised issues of public interest because abuse in
the university system impacted the whole community of public employees. {Id. at
p. 919.) The court concluded that the statements were not a matter of public interest
because Rivero supervised a small staff, was not a public figure, and the publication of
information in the union newsletter was not sufficient to make it a public issue. {Id. at
pp. 924-926.) Although case law did not define the precise boundaries of “public issue,”
in each of the cases, “the subject statements either concerned a person or entity in the
public eye [citations], conduct that could directly affect a large number of people beyond
the direct participants [citations] or a topic of widespread public interest [citation].” {Id.
at p. 924.)
Similarly here, Bikkina was not a public figure, the dispute about an allegedly
contaminated quartz sample did not affect a large number of people, and the two
scientific papers were not a topic of widespread public interest. Even recognizing public
interest in climate change generally, there was no public interest in the private dispute
between Mahadevan and Bikkina about data in papers on carbon sequestration.
Mahadevan asserts that because the dispute was part of a scholarly debate on
climate change, it is a subject of general public interest. The only evidence of an
academic “debate” is one article published by the Society of Petroleum Engineers that
mentions, in one sentence, Mahadevan’s concerns that Bikkina’s results may have been
adversely affected by fluorine contamination.
Our Supreme Court addressed the issue of academic debate in Taus, supra, 40
Cal.4th at page 712, holding the plaintiffs cause of action arose from activity “ ‘in
11
30a

furtherance of [defendants’] exercise of.. . free speech ... in connection with a public
issue’ within the meaning of section 425.16.” Plaintiff was the subject of a case study
described in a “prominent scholarly article about long-repressed memory of childhood
abuse.” (Id. at p. 689.) Defendants published two articles raising doubts about the
original article. (Ibid.) The court concluded that the articles were about a topic of
“substantial controversy” in the mental health field. (Id. at p. 712.) Defendants were
conducting an investigation of the research, writing about the topic and speaking at
conferences all of which was conduct “in furtherance of [their] exercise of.. . free
speech.” (Ibid.)
Unlike Taus, there is no evidence that Bikkina’s two papers were prominent
scholarly articles about a topic in substantial controversy in the field of climate change.
Mahadevan’s statements were only remotely related to the broader subject of global
warming or climate change, and involved specific accusations of plagiarism and use of a
contaminated sample. “[I]t is not enough that the statement refer to a subject of
widespread public interest; the statement must in some manner itself contribute to the
public debate. .. .” (Wilbanks, supra, 121 Cal.App.4th atp. 898, citing Du Charme,
supra, 110 Cal.App.4th 107; Mann v. Quality Old Time Service, Inc. (2004) 120
Cal.App.4th 90, 111 (Mann) [“Although pollution can affect large numbers of people and
is a matter of general public interest, the focus of the anti-SLAPP statute must be on the
specific nature of the speech rather than on generalities that might be abstracted from it.
[Citation.] ... [TO [Defendants’ alleged statements were not about pollution or potential
public health and safety issues in general, but about [the plaintiffs’] specific business
practicesf,]” and did not fall within the anti-SLAPP statute].)
(6 c u

The fact that ‘a broad and amorphous public interest’ can be connected to a
/

specific dispute is not sufficient to meet the statutory requirements” of the anti-SLAPP
statute.... By focusing on society’s general interest in the subject matter of the dispute
instead of the specific speech or conduct upon which the complaint is based, defendants
resort to the oft-rejected, so-called “synecdoche theory of public issue in the anti-SLAPP
statute,” where “[t]he part [is considered] synonymous with the greater whole.” ... In
12
31a

evaluating the first [step] of the anti-SLAPP statute, we must focus on “the specific
nature of the speech rather than the generalities that might be abstracted from it. . . .

55 5

[Citations.” (D.C. v. R.R. (2010) 182 Cal.App.4th 1190, 1216, quoting World Financial
Group, Inc. v. HBWIns. & Financial Services, Inc. (2009) 172 Cal.App.4th 1561, 1570,
original italics; see also Hailstone v. Martinez (2008) 169 Cal.App.4th 728, 736.) Here,
the specific nature of the speech was about falsified data and plagiarism in two scientific
papers, not about global warming.5
Finally, Mahadevan argues this case is of public interest because research done at
LBNL is publically funded; the assumption being that because Bikkina works at LBNL,
his research is of public interest. This argument was rejected in Rivero because not every
use of public funds constitutes a matter of public interest. (.Rivero, supra, 105
Cal.App.4th at p. 925.) Additionally, Papers 1 and 2 were completed before Bikkina was
employed at LBNL.
Although we conclude that the trial court correctly determined that Mahadevan did
not satisfy his burden under the first prong of the anti-SLAPP statute, we choose also to
address the potential merits of Bikkina’s causes of action under the second prong.
C. The Second Prong—Probability ofPrevailing on the Claim
Even if Mahadevan could demonstrate that his statements arose from protected
activity, shifting the burden to Bikkina, Bikkina demonstrated below that his claims have
minimal merit to survive the motion to strike. To satisfy the second prong of the antiSLAPP analysis, the plaintiff “ ‘ “ ‘ “must demonstrate the complaint is both legally
sufficient and supported by a sufficient prima facie showing of facts to sustain a
favorable judgment” ’ ” ’ ” if plaintiffs evidence is credited. {Summit Bank, supra, 206
Cal.App.4th at p. 695, citing Feldman v. 1100 Park Lane Associates (2008) 160

5 On December 1, 2014, appellant filed an unopposed request for judicial notice
of multiple websites addressing research integrity and climate change. This court issued
an order on December 17, 2014, stating that the request would be considered with the
merits of the appeal. We deny the request, finding none of the materials to be relevant to
the dispositive issues on appeal. (See Evid.Code, §§ 452, 459.)
13
32a

Cal.App.4th 1467, 1477-1478.) “Thus, the only question for purposes of our review is
whether, accepting [plaintiffs] evidence as true and only looking to defendants’ evidence
to assess whether it defeats [plaintiffs] as a matter of law, [plaintiff] established his
causes of action against.. . defendant^ ha[s] minimal merit. [Citation.]” (Hawran v.
Hixson (2012) 209 Cal.App.4th 256, 275 {Hawran).)
Mahadevan raised five arguments as to why Bikkina did not carry his burden to
demonstrate his claims have minimal merit: (1) Bikkina has failed to allege sufficient
facts either in his complaint or in opposition to the motion to strike to state the claims
asserted in his complaint; (2) Mahadevan’s statements about Bikkina’s research were, in
fact, true; (3) the statements were privileged under Civil Code section 47, subdivisions
(b), (c); (4) the applicable statute of limitations had expired before Bikkina brought suit;
and (5) Bikkina cannot show actual malice.
1. Bikkina’s Opposition to the Motion to Strike Constituted Prima Facie
Evidence Supporting the Claims Pleaded in His Complaint
a. Defamation
Bikkina pleaded two defamation causes of action in his complaint: libel per se and
slander per se. “Defamation consists of, among other things, a false and unprivileged
publication, which has a tendency to injure a party in its occupation. [Citations.]”
(Wilbanks, supra, 121 Cal.App.4th at p. 901.) “Because the statement must contain a
provable falsehood, courts distinguish between statements of fact and statements of
opinion for purposes of defamation liability. Although statements of fact may be
actionable as libel, statements of opinion are constitutionally protected. [Citation.]”
(McGarry v. University ofSan Diego (2007) 154 Cal.App.4th 97, 112 (McGarry).)
Civil Code section 45 provides, “Libel is a false and unprivileged publication by
writing, printing, picture, effigy, or other fixed representation to the eye, which exposes
any person to hatred, contempt, ridicule, or obloquy, or which causes him to be shunned
or avoided, or which has a tendency to injure him in his occupation.” Statements that
“contain such a charge directly, and without the need for explanatory matter, are libelous
per se. [Citation.]” {McGarry, supra, 154 Cal.App.4th atp. 112.) “To state a

14
33a

defamation claim that survives a First Amendment challenge,... a plaintiff must present
evidence of a statement of fact that is ‘provably false.’ [Citation.]” (Nygard, supra, 159
Cal.App.4th at p. 1048.)
Bikkina contends on appeal that his opposition to the motion demonstrated a prima
facie case of libel and slander per se because Mahadevan’s written and oral statements
stated Bikkina had falsified and plagiarized data in his scientific papers. Bikkina
submitted declarations from University faculty and administration as well as LBNL
scientists, that Mahadevan made false statements to them. These statements are
defamatory per se because they were damaging to Bikkina’s professional reputation. The
University provost’s written decision concluded that Mahadevan “knowingly and in bad
faith” made “false accusations against Mr. Bikkina regarding Paper #1 and Paper #2.”
She concluded that Bikkina had not committed plagiarism.
Mahadevan’s evidence to the contrary was the declaration of Dr. Cornell, and four
scholarly articles that were submitted as exhibits. As to Dr. Cornell’s declaration,
Mahadevan contends it supports his claims that Papers 1 and 2 were based on falsified
data. Cornell’s declaration, however, is far more limited. While Dr. Cornell stated that
he once saw Bikkina using a sample of quartz crystal that appeared to be contaminated,
he acknowledged that he did not know whether this contaminated sample formed the
basis of Bikkina’s research papers.
The first article Mahadevan submitted as an exhibit stated that the authors agreed
with Mahadevan generally that surface contamination can lead to highly biased
measurements, but they made no mention of Bikkina’s papers . The second article stated
that the authors did not observe the “hysteresis effect” reported by Bikkina. The third
article mentioned Bikkina’s research and stated that different results are presented in the
literature from experiments under different conditions, making comparison difficult and
necessitating more research. The final article stated, “The results reported by Bikkina
(2011) in turn may be adversely affected by fluorine contamination on solid surfaces
which raises question [sic] on the accuracy of the data.” However, the article cited only
to Mahadevan’s comment on Bikkina’s work as support for this statement.
15
34a

Bikkina presented contrary evidence to show that his research was accurate, in
addition to the University investigative findings. For example, in his declaration Bikkina
contends that Mahadevan was wrong that the presence of fluorine constituted proof of
contamination. He noted that even after Mahadevan raised his complaints about
contamination of the data to the peer-reviewed journal that published Paper 1, the journal
went forward with publication, demonstrating that it did not believe that Bikkina’s
research was faulty.
The parties’ evidentiary showing as to the issue of truth as a defense was disputed,
and cannot be resolved on defendants’ section 425.16 special motion to strike. {Tans,
supra, 40 Cal.4th at p. 714 [court does not weigh evidence or assess the credibility of the
declarations in support of the anti-SLAPP motion].) Bikkina need only demonstrate a
prima facie showing of facts to sustain a favorable judgment if his evidence is credited.
(Hawran, supra, 209 Cal.App.4th at p. 293.) Accepting Bikkina’s evidence as true, he
has demonstrated his defamation claims have sufficient merit to survive a motion to
strike.
b. Intentional Infliction ofEmotional Distress
The elements of a cause of action for intentional infliction of emotional distress
are: “ ‘(1) outrageous conduct by the defendant, (2) intention to cause or reckless
disregard of the probability of causing emotional distress, (3) severe emotional suffering
and (4) actual and proximate causation of the emotional distress.’ ” (Agarwal v. Johnson
(1979) 25 Cal.3d 932, 946, disapproved on another point in White v. Ultramar, Inc.
(1999) 21 Cal.4th 563, 574, fti. 4.) Shame, humiliation, embarrassment, or anger can
constitute emotional distress, but it must be severe and not trivial or transient. {Fletcher
v. Western National Life Ins. Co. (1970) 10 Cal.App.3d 376, 397.)
Bikkina has provided sufficient evidence to survive a motion to strike that his
distress was severe and enduring. Bikkina’s declaration stated that Mahadevan’s
“campaign” against him had brought great stress to himself and his family. It caused him
✓

to begin clenching his teeth to such a degree that he had broken two teeth requiring dental
implants. He had ongoing stomach problems and chest pains requiring him to visit a
16
35a

hospital. He was also suffering from insomnia. Bikkina was fearful that he would lose
his job and concerned that Mahadevan would contact his new employer, Oklahoma State
University. Mahadevan’s “erratic” behavior also caused him and his wife to fear for their
physical safety.
This showing is akin that that made in Grenier v. Taylor (2015) 234 Cal.App.4th
471, 477 where a claim of intentional infliction of emotional distress brought by a pastor
who was accused by the defendant of drug dealing and child molestation in Internet posts
survived an anti-SLAPP motion to strike. There was evidence in opposition to the
motion that the comments “ruined” the reputations of the pastor and his wife and they
feared for their physical safety such that they did not want to leave their residence, and
even considered moving away so they could continue with a life of anonymity. (Id. at
p. 487.) The court concluded the defendants’ actions were more than mere insults,
threats, or annoyances. (Ibid.)
This case is distinguishable from Wongv. Jing (2010) 189 Cal.App.4th 1354, 1376
(Wong), a case cited by Mahadevan. In Wong, the court found that a professional dispute
which arose between the parents of a patient and the patient’s dentist did not involve
severe emotional distress. (Id. at p. 1377.) The plaintiff dentist had experienced loss of
sleep, stomach upset and generalized anxiety. (Ibid.) The court held this minimal
showing did not reflect severe or enduring emotional distress. (Ibid.)
“An anti-SLAPP-suit motion is not a vehicle for testing the strength of a plaintiffs
case, or the ability of a plaintiff, so early in the proceedings, to produce evidence
supporting each theory of damages asserted in connection with the plaintiffs claims. It is
a vehicle for determining whether a plaintiff, through a showing of minimal merit, has
stated and substantiated a legally sufficient claim. [Citations.]” (Wilbanks, supra, 121
Cal.App.4th at p. 906.) Under this standard, Bikkina has made a sufficient prima facie
showing of intentional infliction of emotional distress.
c. Negligence
Civil Code section 1714 provides: “Everyone is responsible, not only for the result
of his or her willful acts, but also for an injury occasioned to another by his or her want of
17
36a

ordinary care or skill in the management of his or her property or person . . .

(Civ.

Code, § 1714.) “The mandate of this duty is to act with ordinary care and skill in the
management of one’s property and person. Breach of that duty occurs when a want of
ordinary care in such management causes an injury. The result is liability, i.e.,
‘responsibility.’ ” (Krupnick v. Hartford Accident & Indemnity Co. (1994)28
Cal.App.4th 185, 200.) In order to make a prima facie case for negligence, a plaintiff
must demonstrate defendant owed him a duty. (Rivera v. First DataBank, Inc. (2010)
187 Cal.App.4th 709, 719.)
Bikkina alleges that Mahadevan failed to use ordinary care in engaging in the
course of conduct set forth in the complaint. His negligence claim is based on the same
conduct as the defamation claims: Mahadevan made false and malicious statements about
him. As outlined above, Bikkina has presented a prima case showing of facts sufficient
to support his allegations of defamation and intentional infliction of emotional distress. .
Mahadevan only addresses the negligence claim in one paragraph in his reply brief,
without citing any evidence or legal authority. His sole argument is that his statements
were true. As we have outlined above in detail, Bikkina has presented substantial
evidence to the contrary. Moreover, “a finding of actual malice generally includes a
finding of negligence, and evidence that is sufficient to support a finding of actual malice
is usually, and perhaps invariably, sufficient also to support a finding of negligence.”
(Khawar v. Globe Internal, Inc. (1998) 19 Cal.4th 254, 279.)
Bikkina has stated a legally sufficient claim for both actual malice and negligence.
d. Civil Code Section 4 7 Privileges
Mahadevan argues that the common interest privilege under Civil Code section 47,
subdivision (c) applies. In his opening brief, however, he argues Civil Code section 47,
subdivision (b) applies as well. We will address both privileges.
The defendant bears the burden of proving the privilege’s applicability. (Carver v.
Bonds (2005) 135 Cal.App.4th 328, 348-349.) Whether the privilege applies is a
question of law. (Hawran, supra, 209 Cal.App.4th at p. 279.)

18
37a

Civil Code section 47, subdivision (b) applies to a publication or broadcast made
in legislative proceeding, judicial proceeding or other proceeding authorized by law. The
privilege does not apply unless the statements were made in an anticipation of an official
proceeding or during an official proceeding. (Hagberg v. California Federal Bank
(2004) 32 Cal.4th 350, 368.) Initially we note that there is no evidence the University’s
internal complaint process is either authorized by law or reviewable by mandate as
required for application of the privilege as part of an official proceeding authorized by
law. (See Cruey v. Gannett Co. (1998) 64 Cal.App.4th 356, 368 (Cruey).)
But, even if were to assume that Mahadevan’s statements made as part of the
University complaint process to University personnel fall within the privilege,6 his later
statements to LBNL scientists and his allegation of plagiarism to Bikkina’s nonUniversity co-author would not fall within the privilege. (See Hawran, supra, 209
Cal.App.4th at p. 286.)
Civil Code section 47, subdivision (c) provides a conditional privilege for
communications made “without malice, to a person interested therein, (1) by one who is
also interested, or (2) by one who stands in such a relation to the person interested as to
afford a reasonable ground for supposing the motive for the communication to be
innocent, or (3) who is requested by the person interested to give the information.”
(Mann, supra, 120 Cal.App.4th at p. 108.) The “interest” must be something other than
mere general or idle curiosity, such as where the parties to the communication share a
contractual, business, or similar relationship or the defendant is protecting his own
pecuniary interest. (Rancho La Costa, Inc. v. Superior Court (1980) 106 Cal.App.3d 646,
664-665.)
Under Civil Code section 47, subdivision (c), defendant generally bears the initial
burden of establishing that the statement in question was made on a privileged occasion,
6 There is no evidence the University’s internal complaint process was either
authorized by law or reviewable by mandate as required for application of the privilege as
part of an official proceeding authorized by law. (See Cruey, supra, 64 Cal.App.4th at
p. 368.)
19
38a

and thereafter the burden shifts to plaintiff to establish that the statement was made with
malice. (Lundquist v. Reusser (1994) 7 Cal.4th 1193, 1202.) A plaintiff must show
“actual malice” that the conduct was motivated by hatred or ill will. (Taus, supra, 40
Cal.4th at p. 722.)
Citing to unpublished federal authority, Mahadevan argues that scholarly
communications among scientists fall within the common interest privilege. This
privilege within the context of an academic debate was discussed by our Supreme Court
in Taus. {Taus, supra, 40 Cal.4th at p1720.) Plaintiff objected to a statement that she
was engaged in destructive behavior followed by a reference to the fact she was currently
in the military. {Id. at p. 702.) “[I]t is clear that the alleged defamatory statement here in
question—a statement made by Loftus, a psychology professor and author, at a
professional conference attended by other mental health professionals and that was
related to the subject of the conference—falls within the reach of this statutory commoninterest privilege. [Citations.]” {Id. atp. 721.)
Once again, even if the privilege applies here, Bikkina has made a prima facie
showing Mahadevan acted with malice,

44 4 44

The malice necessary to defeat a qualified

privilege is ‘actual malice’ which is established by a showing that the publication was
motivated by hatred or ill will towards the plaintiff or by a showing that the defendant
lacked reasonable grounds for belief in the truth of the publication and thereafter acted in
reckless disregard of the plaintiffs rights (citations).” ’ ” {Taus, supra, 40 Cal.4th at
p. 721, original italics.)
In Hawran, a genetic analysis company issued a press release that it had not used
adequate protocols in its studies related to Down Syndrome, that it had accepted the
resignation of the chief financial officer, Hawran, and was conducting an investigation
into his actions. Hawran sued the company for defamation among other allegations and
the company filed an anti-SLAPP motion to strike. {Hawran, supra, 209 Cal.App.4th at
pp. 264-265.) The company alleged their press release was privileged under section 47
subdivision (c), but Hawran was able to demonstrate malice to defeat the privilege. {Id.
at pp. 286-287.) In his declaration, he asserted that naming him in the press release was
20

39a

motivated by his earlier actions in questioning the board and raising concerns. (Id. at
p. 288.) “In view of the standard required for Hawran to meet his burden, and drawing
all inferences in his favor, we conclude there is enough circumstantial evidence to
support a prima facie case that malice motivated the statements made concerning Hawran
in the September press release.” (Ibid.)
Bikkina’s declaration along with the declarations of the University provost and
LBNL scientists support a conclusion that Mahadevan acted with ill will toward Bikkina
or with reckless disregard of Bikkina’s rights. Mahadevan’s allegations against Bikkina
were repeatedly found to be meritless by the University and yet he continued in his
private campaign to discredit Bikkina’s work. As outlined above, the provost’s
memorandum of decision documents that Mahadevan had disassociated himself from
Bikkina’s research and publications, yet he contacted a co-author to claim he had been
plagiarized and made the same allegations to LBNL scientists. After the provost’s
original decision in 2011 that the allegations were untrue and merited sanctions against
Mahadevan, he raised the same allegations with the University in 2012 and 2013. The
provost described his conduct as “defamatory, retaliatory, demeaning, intimidating,
threatening and otherwise harmful to Mr. Bikkina’s educational and professional
reputation on and off campus.” She further concluded that Mahadevan had violated the
University’s ethical conduct policy by “making false allegations that were grounded in
bad faith and with malicious intent to damage Mr. Bikkina’s reputation, research and
scholarship on and off campus.” The provost further stated after Bikkina requested a new
faculty advisor, Mahadevan threatened he would “screw [him].”
Therefore, even accepting that Mahadevan’s statements at his presentation at
LBNL were grounded in academic debate, his actions in reaching out to Bikkina’s
;

supervisor and LBNL’s research and institutional integrity officer demonstrate malice.
Bikkina’s supervisor stated that he has “never had a scientist do this before.” Similarly
the University provost also stated that she could not “recall a single instance where any
faculty persisted in attempting to re-argue the same allegations over and over again.”

21
40a

LLC
5614 Connecticut Avenue, NW #307
Washington, DC 20015

202-747-2400
202-449-9565 Fax
LegalPrinters.com

July 21, 2020
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
Re:

Jagan Mahadevan v. Prem Bikkina

Dear Sir or Madam:
As required by Supreme Court Rule 33.1(h), I certify that the Petition for a Writ
of Certiorari referenced above contains 8,991 words, excluding the parts of the
document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Sincerely^’
1

Jack Suber, Esq.
Principal

LISA KAY NICHOLSON
Notary Public
State of Maryland
Montgomery County
My commission exp. October 12,2022

©

Sworn and subscribed before me this 21st day of July 2020.

